     STATEMENT OF GREGORY H. FRIEDMAN
              INSPECTOR GENERAL
         U.S. DEPARTMENT OF ENERGY




                  BEFORE THE
        U.S. HOUSE OF REPRESENTATIVES
     COMMITTEE ON ENERGY AND COMMERCE
SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS




                           FOR RELEASE ON DELIVERY

                           1:00 p.m., Wednesday, February 26, 2003




                     1
Mr. Chairman and Members of the Subcommittee. Thank you for the opportunity to

appear today to testify on the Office of Inspector General’s recent inquiry concerning Los

Alamos National Laboratory.



INTRODUCTION



For 60 years, the University of California (University) has operated the Los Alamos

National Laboratory (Los Alamos) for the Department of Energy (Department) and its

predecessor agencies. Among its many important missions and functions, Los Alamos

has critical national security responsibilities, including helping to ensure the safety,

security, and reliability of the nation’s nuclear weapons stockpile.



In recent years, Los Alamos has been the subject of intense scrutiny during a number of

controversies regarding allegations of espionage, lax security, and related internal control

failures. The Department and Los Alamos initiated actions intended to ensure that the

Laboratory was carrying out its missions with a heightened emphasis on protecting

national security interests. Realignment of Los Alamos’ security function, or “S”

Division, was one such action. On a broader scale, Congress and the President created

the National Nuclear Security Administration (NNSA) as a semi-autonomous agency

within the Department.



In 2001, Los Alamos undertook a nationwide search to recruit an experienced leader for

the Office of Security Inquiries within the “S” Division. In addition to various security
                                              2
responsibilities, the job announcement for this position provided that the person hired

would conduct investigations into theft and property protection. Given the sensitive

nature of much of the work at Los Alamos, imbuing this position with a sense of urgency

for the protection of property – especially computers and other technology that may store

classified and other national security information – was consistent with the Laboratory's

stated goal to heighten national security awareness. The nationwide search culminated

with the hiring of a new Security Inquiries Team Leader (Security Inquiries Leader) in

January 2002.



In February 2002, my office issued a report entitled, “U.S. Department of Energy’s

Purchase Card Programs—Lessons Learned.” In May 2002, I testified before this

Subcommittee regarding the results of that effort. Specifically, we identified a number of

concerns with respect to the Department’s management of purchasing activities. In

recent months our focus has turned to Los Alamos in light of allegations about potential

abuses at that facility.



On November 5, 2002, the NNSA Acting Administrator requested that the Office of

Inspector General review allegations that management of the Laboratory was engaged in

a deliberate cover up of illegal activity and security concerns. We interviewed over 60

Laboratory officials and other parties, and reviewed thousands of pages of pertinent

records. One of our first steps was to interview two Laboratory security officials, Glenn

Walp, the Security Inquiries Leader, and Steven Doran. Both men are former law

enforcement officers, and had been hired by the Laboratory in 2002 to help address an

acknowledged deficiency in Los Alamos’ handling of property loss and theft. Both men

were vocal in their criticisms of Laboratory management’s handling of these issues.
                                             3
Approximately one week after we interviewed the two security officials, the Laboratory

terminated their employment. This raised the specter that the terminations could have

been retaliatory. Consequently, we incorporated these actions into our inquiry.



SUMMARY OF INQUIRY FINDINGS



Our recently-issued report of inquiry disclosed a series of actions by Laboratory officials

that obscured serious property and procurement management problems and weakened

relevant internal controls. These actions created an atmosphere in which Los Alamos

employees were discouraged from, or had reason to believe they were discouraged from,

raising concerns to appropriate authorities. In short, management’s actions resulted in

delayed identification and resolution of the underlying property and procurement

weaknesses, and related security concerns. Specifically, we found that Laboratory

management:

   •   Failed to take appropriate or timely action with respect to a number of identified

       property control weaknesses. There was:

       (1) inadequate or untimely analysis of, and inquiry into, property loss or theft and

       security issues;

       (2) lack of personal accountability for property;

       (3) a substantial degree of dysfunction in the Laboratory’s communication and

       assignment of responsibilities for the handling of property loss and theft concerns;

       and

       (4) inadequate controls over procurement and property systems.



                                             4
We also found that Laboratory management:

   •   Had inadequate policies governing when and under what circumstances activities

       must be reported to law enforcement.



   •   Issued, then immediately rescinded without adequate explanation, a memorandum

       requiring corrective actions to address “disturbing negative trends regarding

       Laboratory management of Government property.” Another memorandum was

       later reissued in modified form, but a number of the corrective action mandates

       were never fully effectuated.



We found, as well, that the Laboratory:



   •   Published certain materials distributed to Laboratory employees, in advance of a

       2002, Department cyber security review, containing such phrases as

       1. “Resist the temptation to ‘spill your guts’”;

       2. “Handwritten notes can be especially damaging….They are not easily

           disavowed”; and

       3. “Finger pointing will just make the program look bad.”



Our inquiry corroborated a number of the concerns expressed by the two terminated

security officials. The Laboratory’s decision to terminate the employment of the two

security officials during ongoing external reviews that were addressing some of the very

same issues raised by these officials, was, in our judgment, an incomprehensible action

on the part of the University of California. These events:


                                            5
   •   Raised doubts, in our judgment, about Los Alamos’ commitment to solving noted

       problems;

   •   Fostered a chilling effect on employees who may have been willing to speak out

       on matters of concern; and

   •   Were inconsistent with Laboratory and University of California obligations under

       its contract with the Department of Energy.



As you know, the University recently announced that the two security officials had been

re-hired, albeit on a temporary basis, as a part of the Office of the President.



Our report of inquiry contained specific recommendations for corrective action. In

particular, responsible Department officials must ensure that the University of California

and the Laboratory’s management is held accountable for implementing and executing

corrective actions resulting from the current situation at the Laboratory.




                                              6
DETAILS OF INQUIRY FINDINGS

A. Allegations of Cover-up/Questionable Management Actions



Laboratory officials took a number of actions that, in our judgment, obscured serious

property management and security problems. These actions created an atmosphere in

which Los Alamos employees were discouraged from, or had reason to believe they were

discouraged from, raising concerns about property loss and theft, or other concerns, to the

appropriate authorities.



In short, management’s actions made successful identification and resolution of the

underlying property, procurement, and security weaknesses problematic. The most overt

action taken by Los Alamos was the firing of the two security officials. This action,

taken amidst ongoing reviews of allegations of lax security controls, was clearly and

predictably controversial. Moreover, the officials were fired soon after they spoke with

the Office of Inspector General. It is impossible to imagine that this action would not

have had a chilling effect on other employees who might have contemplated speaking out

about problems at the Laboratory. In our judgment, the terminations undermined

management’s actions to address the core issue: identifying and correcting weaknesses in

controls over national security assets.


In addition to the firings, our inquiry disclosed that Laboratory management:

   •   Issued, then immediately rescinded, a memorandum requiring corrective actions

       to address problems regarding the management of Government property.




                                             7
   •   Published Laboratory documents that could be interpreted as discouraging Los

       Alamos employees from reporting on the extent or severity of control weaknesses.


                                Rescinded Memorandum



In an April 2002, memorandum, addressed to all Laboratory “Leaders,” the Laboratory’s

Office of the Chief Financial Officer (CFO Office) cited the need to “call your attention

to disturbing negative trends regarding Laboratory management of Government property

and to engage your support in taking corrective action.” According to the CFO Office,

the concerns were that the amount of property missing during the Fiscal Year 2001

inventory had nearly tripled from the previous year, to $723,000; and, that substantial

amounts of property, valued at $533,000, had been reported lost or stolen during Fiscal

Year 2001.



The CFO Office’s memorandum further stated that neither Los Alamos nor the

Department could accept $1.3 million (the approximate total of the two categories listed

previously) in unaccounted property. The CFO Office noted that the issue would

negatively impact the Laboratory’s rating in property management. Attached to this

memorandum was organization-specific listings reflecting property losses.



To address these concerns, the CFO Office described four new quarterly tracking and

trend reports that this office would be responsible for issuing. The memorandum

requested that each Los Alamos division develop a corrective action plan to raise

awareness of property accountability and safeguards. The memorandum also suggested

the initiation of a root cause analysis and planned training, and recommended review of

                                             8
instances of multiple losses or lack of accountability by the same individual. On

December 18, 2002, we asked the CFO Office to provide us copies of each of these

reports, including copies of each division’s corrective action plan.



In a memorandum dated December 19, 2002, we were informed that the April 10, 2002,

memorandum had actually been rescinded the day after it was distributed. We were told

that Los Alamos management decided that it would be more appropriate to provide each

division leader only the information relevant to his or her division and that it served no

purpose and was insensitive to people’s privacy to publish the entire list. Thus, an e-mail

was sent asking division leaders to disregard the memo of the previous day. Although a

version of this memorandum was subsequently reissued a number of the corrective action

mandates were never fully effectuated.



This chain of events raised doubts as to management’s commitment to address identified

control weaknesses.



                                  Laboratory Documents



During our inquiry, two other significant documents came to our attention that could be

interpreted as discouraging Los Alamos employees from reporting on the extent or

severity of control weaknesses.



We reviewed briefing materials for a training course to be attended by Los Alamos

employees in anticipation of a November/December 2002 Department of Energy

Inspection & Evaluation (I&E) review on Laboratory cyber security. The briefing
                                             9
materials, which were prepared by the Laboratory’s Office of Chief Information Officer

(CIO Office), were titled, “Surviving the [I&E] Audit,” and included the following

suggestions:

   •   “Resist the temptation to ‘spill your guts’.”

   •   “Handwritten notes can be especially damaging….They are not easily

        disavowed.”

   •   “Finger pointing will just make the program look bad.”



When shown these materials, a senior Los Alamos management official said that he had

not previously seen them and that they were “stupid.” Subsequently, on December 16,

2002, a memorandum was sent to certain employees clarifying the purpose of these

materials in light of their “potential for misinterpretation.”



A second document was a Code of Ethical Conduct statement. The document was based

on the Institute of Internal Auditors (IIA) Code of Ethics, but departed from the IIA code

by requiring auditors not to use information in a manner that could be perceived as

“…detrimental to the University of California, the Los Alamos National Laboratory, or

the Audits and Assessments Office.” While it may not have been the intent of the

document, reporting erroneous payments or surfacing other internal control weaknesses –

traditional responsibilities of internal auditors – could be perceived as “detrimental” to

Los Alamos. Los Alamos auditors were also asked to “exhibit loyalty in all matters

pertaining to the affairs of the University of California, the Los Alamos National

Laboratory, and the Audits and Assessments Office.…” The conduct statement created,

in our opinion, the appearance of a lack of independence for Los Alamos auditors.


                                              10
B. Security Officials’ Terminations



We endeavored to evaluate the Laboratory’s decision to terminate the employment of the

two security officials consistent with the Department’s standards for protecting contractor

employees from retaliatory actions. Based on our evaluation, we believe it will be

difficult for the University of California to sustain its burden under the prevailing

standard for adjudicating these matters.



Specifically, under the Department’s procedures, once an initial case of retaliatory

termination is established, the burden shifts to the contractor entity to demonstrate, by

clear and convincing evidence, that the contractor entity would have taken the same

action without the contractor employee’s disclosure or other protected activity.



In this regard, our inquiry disclosed that:



   •   The two security officials were vocal in their criticisms of the Laboratory’s

       management of property loss and theft concerns.



   •   Laboratory management acknowledged that prior to the arrival of the Security

       Inquiries Leader, Laboratory efforts to inquire into these matters were inadequate.



   •   Recent external reviews, including this inquiry, corroborated a number of the

       fundamental concerns previously expressed by the two terminated security

       officials relating to property and management systems.


                                              11
   •   As late as October 2002, the Security Inquiries Leader had received a favorable

       performance evaluation.



The timing of the terminations was, itself, suspect. A memorandum documenting the

Laboratory’s stated rationale for the terminations is dated the same day (November 20,

2002) as the Office of Inspector General’s interview of one of the two security officials.

We were advised by the Security Inquiries Leader, and Laboratory documentation

confirmed, that he had informed his management, in advance, that he and his staff were

to be interviewed by the Office of Inspector General inquiry team.



In the November 20, 2002, memorandum cited above, a senior Los Alamos official

documented what he believed to be valid reasons for the terminations. We evaluated

these reasons, and concluded that a substantial number of them do not withstand scrutiny.



C. Internal Control Weaknesses



In a March 26, 2002, memorandum to Los Alamos management, the Security Inquiries

Leader expressed significant concern with the manner in which Los Alamos addressed

property loss and potential theft. Our inquiry corroborated a number of those concerns.

Specifically, we found:

   (1) inadequate or untimely analysis of, and inquiry into, property loss or theft and

       security issues;

   (2) lack of personal accountability for property;




                                            12
   (3) a substantial degree of dysfunction in the Laboratory’s communication and

       assignment of responsibilities for the handling of property loss and theft concerns;

       and

   (4) inadequate controls over procurement and property systems.



                               Property and Security Issues



We noted that property loss and theft issues, and related security considerations, were not

subject to thorough and consistent analysis. For example, in 2001, a report documenting

the loss of a security radio was inadequate. It did not provide information concerning

what frequencies might have been compromised.



The Security Inquiries Leader expressed this and related concerns in his March 2002

memorandum, including those with respect to the entry into a law enforcement tracking

system of Laboratory property theft reports. Although he noted that such reports were

being provided to the Los Alamos Police Department and the FBI, the Security Inquiries

Leader asserted that those agencies were not entering the property information into the

National Crime Information Center records because the reports were of poor quality.



As noted by a counterintelligence official, the theft of Laboratory property can have

national security implications. In this vein, with respect to previous Laboratory property

reports he reviewed, the Security Inquiries Leader observed:




                                            13
           “The reports indicate that no questions were asked pertaining to the type of data

           that may have been on stolen computers, laptops, PDAs1, and digital cameras. It

           is possible that they may have had sensitive or proprietary materials on those

           systems, but inquiry personnel failed to explore that potential; at least one can

           assume this view based on the data contained in the inquiry reports.”



Based on these concerns, we requested that Los Alamos explain the steps taken to

account for lost computers and other sensitive equipment. We also inquired as to any

efforts made to evaluate whether classified or other protected information had been

compromised as a result. The Laboratory produced a draft memorandum, dated

December 18, 2002, in which the Chief Information Office (CIO) concluded that none of

the lost, stolen, or unlocated computers identified by Los Alamos contained classified

information. The CIO’s memorandum also concluded that there were at least 258

computers lost, 44 computers stolen, and 61 computers unlocated for Fiscal Years 1999,

2000, 2001, and 20022. We did not validate these numbers, or the CIO’s conclusion

concerning the non-compromise of classified information. In fact, a CIO official told us

that there were inconsistencies between these numbers and previous reports provided by

the CFO and the Office of Security Inquiries.



A CIO official acknowledged that the Laboratory’s processes for reporting lost, stolen,

and unlocated computers are “fragmented.” He noted inconsistencies between computers

reported lost and stolen to the Office of Security Inquiries and data available to property

management officials. Another Laboratory official confirmed that these reporting


1
    “Personal Digital Assistants.”
2
    The memorandum identified an additional 75 computers requiring follow up and resolution status.
                                                     14
mechanisms are not integrated throughout the Laboratory, and both of these key officials

asserted that they have recently recommended corrective action to ensure that appropriate

systems are integrated.



The timing of the Laboratory’s effort to reconcile these important questions is, in and of

itself, troubling. It was not until the November-December 2002 timeframe that there was

intensive effort in this regard.



                                   Property Accountability



According to a Los Alamos official, Laboratory employees have not been routinely held

liable or accountable for lost property under their control. This official explained that

when an employee first takes custody of an item of property, the employee signs an

“accountability” statement. However, Los Alamos management generally chose not to

enforce the statements, according to this official, but rather chose to “write off” the

missing property at the end of an inventory cycle. An accounts receivable official could

not recall ever receiving any restitution from any Los Alamos employee for a lost or

stolen item for which he or she was responsible. The Security Inquiries Leader made a

similar point in his March 2002 memorandum.



Another issue we identified relates to Los Alamos’ use of “drop points” for the delivery

of new equipment. Under the drop point system, Laboratory property is not delivered,

uniformly, to a central, secure location. At such a secure central location, the equipment

can be tagged, inventoried, and consistently tracked. We were told that many of these

Laboratory drop points are in open spaces with little or no security. A number of key

                                             15
officials advised that there have been insufficient Laboratory efforts to ensure that

equipment delivered to Laboratory drop points is safeguarded. We were also told that

property would be left at these locations for inordinate amounts of time, without being

checked by property administrators.



                            Communication and Responsibilities


Our inquiry disclosed a substantial degree of dysfunction in Los Alamos’ communication
and assignment of responsibilities and authorities for the handling of property loss and
theft concerns. For example, Laboratory management sent mixed messages to the two
former security officials with respect to the scope of their authorities and responsibilities.
Security Inquiries officials were told that they were not “investigators.” At the same
time, our inquiry disclosed that one of the terminated security officials was directed by a
senior Los Alamos official to travel off site, to another state to interview a private citizen,
to obtain information concerning a matter (the alleged improper purchase of a Mustang
automobile), which included the possibility that it was criminal in nature. This appeared
inconsistent with previous direction, and other management communications to these
officials, about the scope of their responsibilities and authorities.


Further, Laboratory management acknowledged that there were inadequate Laboratory
policies that governed when and under what circumstances Laboratory activities must be
reported to law enforcement. Laboratory officials had been drafting such a policy since
the spring of 2002, but the policy remained in draft at the time of our inquiry.


Our inquiry also disclosed organizational inconsistency between the roles of the Office of
Audits and Assessments and the Office of Security Inquiries. The Office of Audits and
Assessments was tasked with the internal review of Laboratory “waste, fraud, and abuse”
concerns, whereas the Office of Security Inquiries was responsible for reviewing alleged
“theft.” This left not only the potential for “overlap” in responsibilities, but “underlap,”
as one senior security official characterized this condition to our inquiry team.



                                              16
                           Procurement and Property Systems


As we completed our inquiry fieldwork, the final report of the Laboratory’s external
review team was completed. That report noted a number of Laboratory “programmatic
weaknesses” with respect to Los Alamos’ controls over purchase cards, including:


   •   Failure to reconcile and approve monthly statements;


   •   Failure to resolve disputed transactions;


   •   Failure to properly account for controlled property;


   •   Purchase of restricted items in violation of Laboratory policies;


   •   Insufficient documentation of items purchased;


   •   Inadequate or ineffective sanctions for non-compliance;


   •   Insufficient training, especially for approvers;


   •   Insufficient program audit and review procedures;


   •   Failure to properly manage cardholder spending limits; and,


   •   Failure to safeguard card information.


The external review team recommended a number of corrective actions, and noted that
they had not validated the Laboratory’s implementation of recent corrective actions.


We also noted during our inquiry that NNSA had completed an assessment of the
Laboratory’s “Personal Property Management” and “Procurement Management,” in
December 2002, and rated the Laboratory as “excellent” in both categories. Although we

                                            17
did not evaluate the process by which NNSA arrived at such a rating, we believe the
process should be re-evaluated in light of events.


RECOMMENDATIONS


In our report, we made specific recommendations for corrective action. In particular,
responsible Department officials must ensure that the University of California and the
Laboratory’s management are held accountable for implementing and executing
corrective actions resulting from the situation at the Laboratory.


OTHER OIG REVIEWS



Beyond this special inquiry, Mr. Chairman, we have a number of recently completed

reviews and ongoing efforts at the Laboratory. Our most recent report, issued on

February 21, 2003, examines internal controls of firearms at Los Alamos. We concluded

that weaknesses exist in the administration of the firearms inventory, which included over

1,600 guns. We found, for example, that 12 firearms received in 1999 were not entered

into the Laboratory’s inventory. Also, separate firearms inventories maintained by Los

Alamos and the security subcontractor were inconsistent and had not been reconciled. In

addition, all firearms were not processed through a central receiving point, resulting in

delays in entering some firearms into the Los Alamos property management database. In

fact, some firearms never made it into the database. Management asserted that the

problems we encountered concerned receipt of firearms and not accountability of

firearms. However, in our judgment, the failure of Los Alamos to provide an accurate

firearms inventory; the lack of reconciliation of the Los Alamos inventory with the

security force inventory; and the acknowledged problems in the process for receipt of

firearms and their inclusion in the official Laboratory inventory raised additional doubt


                                             18
about the property control system at Los Alamos. In response to our report, management

indicated that corrective actions would be taken.



Other ongoing Office of Inspector General reviews and investigations, as well as matters

under the purview of the Federal Bureau of Investigation, are continuing to address a

number of relevant concerns. The OIG efforts include:

   •   A review of laboratory controls over laptop and desktop computers;

   •   A review of the allowability of costs claimed by the University of California

       under its contract to manage the Laboratory for the Department of Energy; and

   •   A number of criminal investigations regarding misuse of purchase authority.



The criminal investigations are being worked in coordination with the United States

Attorney’s Office in New Mexico. Due to the sensitive nature of ongoing investigations,

we will be unable to provide specific information on the individual cases.



Mr. Chairman, as noted previously, our work at Los Alamos National Laboratory

continues with the objective of addressing a number of concerns that have been raised

regarding Laboratory operations.



This concludes my statement and I would be pleased to answer any questions.




                                            19
